DODIG-2012-049                          February 2, 2012




         Improvements Needed With Identifying
            Operating Costs Assessed to the
           Fleet Readiness Center Southwest
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8837) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (571) 372-7469, or by mail:

                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing
                      ATTN: Audit Suggestions/ 13F25-04
                      4800 Mark Center Drive
                      Alexandria, Virginia 22350-1500




Acronyms and Abbreviations
BRAC                          Base Realignment and Closure
CONOPS                        Concept of Operations
DLA                           Defense Logistics Agency
FISC                          Fleet Industrial Supply Center
FRCSW                         Fleet Readiness Center Southwest
MOA                           Memorandum of Agreement
SS&D                          Supply, Storage, and Distribution
                                    INSPECTOR GEN ERAL 

                                   DEPARTMENT OF DEFENSE 

                                   4800 MARK CENTER DR IVE 

                                ALEXANDRIA, VIRGIN IA 22350-1500 



                                                                                  February 2, 201 2

MEMORANDUM FOR DIRECTOR, DEFENSE LOGISTICS AGENCY
               NAY AL INSPECTOR GENERAL

SUBJECT: Improvements Needed With Identifying Operating Costs Assessed to the Fleet
         Readiness Center Southwest (Report No. DODIG-2012-049)

We are providing this report for review and comment. We conducted this audit in
response to an allegation made to the Defense Hotline. The Defense Hotline allegation
was not substantiated. The surcharge discussed in the allegation was not charged or
assessed by the Defense Logistics Agency to recapture their operating cost. The surcharge
referred to in the allegation was an internal Fleet Readiness Center Southwest surcharge.
Although the allegation was not substantiated, Defense Logistics Agency Aviation
San Diego officials did not correctly assess their operating costs for providing supply,
storage, and distribution supporl to the Fleet Readiness Center Southwest. As a result,
Defense Logistics Agency Aviation San Diego could reduce its operating costs by
approximately $5.8 million per fi scal year. We considered management comments on a
draft of this report when preparing the final report.

000 Directive 7650.3 requires that recommendations be resolved promptly. The Deputy
Director, Defense Logistics Agency Logistics Operations, responded for the Commander,
Defense Logistics Agency Aviation San Diego and the Director, Defense Logistics Agency
Finance Aviation. The Deputy Director, Defense Logistics Agency Logistics Operations
comments to Recommendation I were partially responsive and Recommendations 2, 3, and 4
were not responsive. Therefore, we request that the Commander, Defense Logistics Agency
Aviation San Diego and the Director, Defense Logistics Agency Finance Aviation, provide
additional cOl11ments by March 5, 2012 on Recommendations 1,2,3, and 4 that includes a time
frame for completing corrective actions.

Ifpossible, send a .pdffile containing your comments to audros@dodig.mil. Copies of the
management comments must contain the actual signature of the authorizing official for your
organization. We are unable to accept the /Signed/ symbol in place of the actual signature. If
you arrange to send classified comments electronically, you must send them over the SECRET
Internet Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-8876 (DSN 664-8876).




                                            ~f~~F~~7J
                                             Assistant Inspector General
                                             Readiness, Operations, and Support
Report No. DODIG-2012-049 (Project No. D2010-D000LC-0248.000)                February 2, 2012
	


               Results in Brief: Improvements Needed With
               Identifying Operating Costs Assessed to the
               Fleet Readiness Center Southwest
                                                           support agreement that clearly identified
What We Did                                                services performed and costs associated with
We initiated this audit in response to an                  those services. In addition, neither DLA
allegation to the Defense Hotline. Initially, our          Finance Aviation Office nor DLA Aviation San
objective was to determine whether the Defense             Diego Material Management Division personnel
Logistics Agency (DLA) correctly assessed                  developed or implemented policies and
surcharges for material shipments to the Fleet             procedures that identified, estimated, and
Readiness Center Southwest (FRCSW).                        documented DLA Aviation San Diego’s
Specifically, we determined whether DLA                    operating costs. As a result, DLA Aviation
appropriately assessed surcharges for standard             San Diego could reduce its operating costs for
orders and hazardous materials that relate to the          providing SS&D to FRCSW by approximately
agency’s operating costs. However, DLA                     $5.8 million per fiscal year. Furthermore, DLA
Aviation San Diego, California, officials did not          Aviation San Diego could not provide sufficient
use a surcharge to assess their operating costs.           documentation for $13.9 million in estimated
Therefore, we revised our objective to                     SS&D support costs.
determine whether DLA Aviation San Diego
correctly assessed its operating costs to FRCSW            What We Recommend
for providing supply, storage, and distribution            We recommended that the Commander, DLA
(SS&D). DLA Aviation San Diego assessed                    Aviation San Diego and the Director, DLA
their total estimated operating costs to FRCSW             Finance Aviation:
through an annual fixed-price agreement. Of                    •	 coordinate with the Comptroller,
the $70.1 million in estimated operating costs                     FRCSW to develop and implement a
from FY 2009 through FY 2011, we reviewed                          local support agreement;
$59.3 million of the estimated operating costs to              •	 establish a quality control process to
determine whether the cost were allowable and                      review the operating costs assessed to
supportable.                                                       the FRCSW; and
                                                               •	 reduce operating costs in future years by
What We Found                                                      not performing services outside the
DLA Aviation San Diego officials did not                           scope of SS&D support or that are not
correctly assess their operating costs for                         the responsibility of DLA Aviation
providing SS&D support to FRCSW.                                   San Diego.
Specifically, DLA Aviation San Diego officials
assessed $17.6 million in operating costs for              Management Comments and
services that were outside the scope of their              Our Response
SS&D responsibilities and $5.1 million in
                                                           The Deputy Director, DLA Logistics
operating costs for services that were potentially
                                                           Operations, provided comments on the draft
not SS&D. This occurred because the
                                                           report. However, management comments were
Commander, DLA Aviation San Diego, the
                                                           either partially responsive or not responsive.
Director, DLA Finance Aviation, and
                                                           We request DLA provide comments by
Comptroller, FRCSW did not develop a local
                                                           March 5, 2012.

                                                     i
	
Report No. DODIG-2012-049 (Project No. D2010-D000LC-0248.000)   February 2, 2012

Recommendations Table

        Management                   Recommendations       No Additional Comments
                                    Requiring Comment            Required
Director, Defense Logistics     1, 2, 3, 4
Agency Finance Aviation
Commander, Defense Logistics    1, 2, 3, 4
Agency Aviation San Diego

Please provide comments by March 5, 2012.




                                             ii
	
Table of Contents

Introduction                                                                 1


      Objective                                                              1

      Background                                                             1

      Internal Controls Over Identifying and Estimating
	
        Operating Costs Were Ineffective                                     4


Finding. Processes for Identifying and Estimating Operating Costs

Need Improvement                                                             5
	

      DoD and Defense Logistics Agency Guidance Requires
	
        Agreements and Defines Supply, Storage, and Distribution             5

      Operating Costs Assessed, but Included Costs Outside

        of Scope and Unsupported Estimates                                   6

      Operating Cost Assessed Were Allowable and Supportable                12 

      Inadequate Processes for Identifying and Estimating Operating Costs   13 

      Conclusion                                                            15 

      Management Comments on Internal Controls and Our Response             15 

      Recommendations, Management Comments, and Our Response                16 


Appendix

      Scope and Methodology                                                 20 

      Universe and Non-Statistical Sample Selection                         21 

      Use of Computer Processed Data                                        21 

      Prior Coverage                                                        22 


Management Comments

      Defense Logistics Agency Comments                                     23 

Introduction
Objective
We initiated this audit in response to a Defense Hotline allegation. Initially, our objective
was to determine whether Defense Logistics Agency (DLA) correctly assessed
surcharges for material shipments to Fleet Readiness Center Southwest (FRCSW);
specifically, whether DLA appropriately assessed surcharges for standard orders and
hazardous materials that relate to the agency’s operating costs. However, DLA Aviation
San Diego, California, officials did not use a surcharge to assess their operating costs for
providing supply, storage, and distribution (SS&D) support to FRCSW. DLA Aviation
San Diego officials assessed their total estimated operating costs to FRCSW through an
annual fixed-price agreement. Therefore, we revised our objective to determine whether
DLA Aviation San Diego officials correctly assessed their operating costs to FRCSW for
providing SS&D support. See Appendix A for a discussion our scope and methodology.

The complainant alleged that DLA Aviation San Diego officials incorrectly assessed a
surcharge to FRCSW to recapture their operating expenses on standard and hazardous
material orders. As a result, FRCSW cost centers overcharged customers on every
material order.

The Defense Hotline allegation was not substantiated. The surcharge discussed in the
allegation was not charged or assessed by DLA to recapture their operating cost. The
surcharge referred to in the Defense Hotline allegation was an internal FRCSW
surcharge. The Comptroller, FRCSW implemented the surcharge to allocate and collect
the costs for material management support from the individual cost centers. Although the
Defense Hotline was not substantiated, the allegation directly resulted in identifying
internal control weaknesses in DLA Aviation San Diego’s process for estimating
operating cost.

Background
Material Management Support Partnership Established
On June 30, 2003, the Naval Air Systems Command and Naval Supply Systems
Command entered into a memorandum of agreement (MOA) to define the overarching
strategy of the FRCSW and Fleet and Industrial Supply Center (FISC) 1 partnership. The
MOA provided a framework for both FRCSW and FISC to transfer the material and
material management functions from FRCSW to FISC San Diego. In addition, the MOA
stated that FISC San Diego was responsible for managing material support requirements
to meet the defined performance standards of FRCSW. The goal of the MOA was to




1
 During FY 2009, FISC became DLA Aviation. Also, the Naval Air Systems Command Depot North
Island, Naval Base Coronado, became FRCSW.

                                               1
	
improve FRCSW material availability in support of aviation depot maintenance, depot
production efficiency, and weapons system availability to the warfighter.

Base Realignment and Closure Recommendation Realigned
SS&D Functions
On September 8, 2005, the Base Realignment and Closure (BRAC) Commission Report
Recommendation #177 (BRAC Recommendation #177) realigned SS&D functions at
industrial depot and shipyard locations throughout the United States from Military
Services to DLA. In February 2009, with the implementation of BRAC
Recommendation #177, DoD realigned and assigned FISC San Diego personnel who
performed SS&D functions to DLA Aviation San Diego.

To implement the BRAC Commission recommendation, DLA issued the “Navy – DLA
BRAC Supply, Storage, and Distribution Concept of Operations
(BRAC CONOPS),” April 17, 2009. The BRAC CONOPS provides the DLA approach
to achieve both the initial state (Day 1) and the ultimate end state implementation of
BRAC Recommendation #177. In the initial state, DLA used existing Navy information
technology systems, processes, procedures, and funding to provide SS&D support to
industrial depots. According to the BRAC CONOPS, to achieve the end state,

   •	 DLA will capitalize all mutually agreed upon inventories from BRAC designated
      Navy Industrial Activities;
   •	 DLA and Navy information technology systems, processes, procedures, and
      funding will be integrated based upon mutually agreed upon functional
      requirements;
   •	 DLA will acquire all consumables, DLA managed and non-DLA managed, with
      Defense Working Capital Fund obligation authority; and
   •	 BRAC designated Navy Industrial Activities will transfer all mutually agreed
      upon facilities (currently maintained by Operations and Maintenance, Navy
      funds) to DLA.

According to DLA Aviation personnel, part of the end state includes DLA Aviation
developing a standard and consistent overhead rate to assess the DLA Aviation San
Diego operating cost to FRCSW. Headquarters, DLA Aviation will use historical
operating cost data from DLA Aviation San Diego, starting with FY 2009, as the basis
for the overhead rate. Therefore, an accurate depiction of the DLA Aviation San Diego
operating cost is needed to ensure that only SS&D services are represented.

DLA Aviation Managed SS&D Operations
DLA Aviation was the supply chain owner for air aviation and space support within DoD
and managed SS&D operations. DLA Aviation San Diego served as the single point of
contact responsible for the daily operations of all retail-level SS&D support for FRCSW.
DLA Aviation San Diego worked with FRCSW to provide critical aviation supply chain
parts and helped FRCSW sustain scheduled and unscheduled depot-level maintenance,



                                           2
	
repair, and manufacturing processes. DLA Aviation San Diego provided SS&D support
for specific aircrafts, engines, manufacturing, and major hydraulics and avionics
components repair programs.

DLA Operating Costs Assessed to FRCSW
DoD Regulation 7000.14-R, “Financial Management Regulation,” volume 11B,
chapter 1, “Defense Working Capital Funds General Policies and Procedures,”
April 2010, states that Government entities that are a part of the DoD Working Capital
Fund provide goods and services on a reimbursable basis to other Activities within DoD
and to non-DoD Activities when authorized.

Additionally, the DoD Regulation 7000.14-R, “Financial Management Regulation,”
volume 11A, chapter 1 “General Reimbursement Procedures and Supporting
Documentation,” April 2008, further defines the expense categories reimbursable to a
DoD Working Capital Fund activity. Reimbursable expense categories include expenses
(such as direct labor, overhead rates, transportation, contract costs, and contract
administrative costs).

As a Defense Working Capital Funds activity, DLA Aviation San Diego may request
reimbursement for those expenses related directly or indirectly to providing SS&D
support to FRCSW. DLA Aviation San Diego officials requested reimbursement from
FRCSW based on the annual estimated operating costs. DLA Aviation San Diego
officials billed FRCSW for SS&D support quarterly and FRCSW made payment to DLA
Aviation quarterly with a military interdepartmental purchase request. From FY 2009
through FY 2011, DLA Aviation San Diego officials assessed approximately
$70.1 million to FRCSW for providing SS&D support. Table 1 identifies DLA Aviation
San Diego costs assessed to FRCSW from FY 2009 through FY 2011.

                Table 1. DLA Aviation San Diego’s Operating Costs

                                             Total Operating
                        Fiscal Year               Costs
                                                 (millions)
                            2009                  $24.1
                            2010                  $22.5
                            2011                  $23.5
                           Total                  $70.1

After FRCSW officials paid DLA Aviation San Diego, the Comptroller, FRCSW
allocated the DLA Aviation San Diego estimated operating costs to its cost centers




                                           3
through a material recovery rate. 2 The Comptroller, FRCSW created the material
recovery rate as an internal method for assessing and collecting the costs for material
management support to the individual cost center. In FY 2009 and FY 2010, FRCSW
allocated the material recovery rate to 21 cost centers; in FY 2011, FRCSW officials
allocated the material recovery rate to 25 cost centers.

Internal Controls Over Identifying and Estimating
Operating Costs Were Ineffective
DoD Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified internal control
weaknesses for the Commander, DLA Aviation San Diego and the Director, DLA
Finance Aviation. The Commander, DLA Aviation San Diego and the Director, DLA
Finance Aviation did not have a local support agreement that clearly outlined the details
of their partnership with the FRCSW or written policies and standard operating
procedures for developing or documenting estimated operating costs for FRCSW. We
will provide a copy of the report to the senior officials responsible for internal controls in
DLA and the Department of the Navy.




2
  The material recovery rate is a surcharge added when material ordered is received, which can adjust to
recover DLA costs associated with material management support.

                                                     4
	
Finding. Processes for Identifying and
Estimating Operating Costs Need
Improvement
DLA Aviation San Diego officials did not correctly assess their operating costs for
providing SS&D support to FRCSW. Specifically, DLA Aviation San Diego
officials assessed $17.6 million in operating costs for services that were outside the
scope of their SS&D responsibilities and $5.1 million in operating costs for
services that were potentially not SS&D. In addition, DLA Aviation San Diego
officials did not always support estimated operating costs with sound estimation
and documentation practices.

This occurred because the Commander, DLA Aviation San Diego; the Director,
DLA Finance Aviation; and the Comptroller, FRCSW did not develop a local
support agreement that clearly identified services performed and costs associated
with those services. In addition, neither DLA Finance Aviation Office nor DLA
Aviation San Diego Material Management Division personnel developed or
implemented written policies or standard operating procedures that identified,
estimated, and documented DLA Aviation San Diego’s operating costs.

As a result, DLA Aviation San Diego officials could reduce their operating costs
for providing SS&D support to FRCSW by approximately $5.8 million per fiscal
year (average from FY 2009 through FY 2011). Furthermore, DLA Aviation San
Diego could not provide sufficient documentation for $13.9 million in estimated
SS&D support cost.

DoD and DLA Guidance Requires Agreements and
Defines SS&D
Support Agreement Criteria for Reimbursable Costs
DoD Instruction 4000.19, “Interservice and Intragovernmental Support,” August 9, 1995,
provides policy and procedures for interservice support. According to
DoD Instruction 4000.19, “recurring interservice support that requires reimbursement
must be documented by a signed support agreement.” A support agreement between two
organizations should outline the time period in which the service will be provided, the
type and category of service that will be provided, the estimated annual amount needed to
fund the agreement, and the general provisions and details on the services being
provided. DoD Regulation 7000.14-R, “Financial Management Regulation,”
volume 11A, chapter 1, April 2008, states that without an agreement, there is no
assurance that there was an agreement between parties on the services to be provided or
that payment is required.




                                             5
	
DLA Business Plan Defined SS&D Functions
The “DLA Business Plan Supply, Storage, and Distribution Management
Reconfiguration #177,” August 2, 2009, and February 1, 2010, (DLA Business Plan)
provides specific directions on the SS&D functions transferred and which Components
within DLA will maintain certain functions. The DLA Business Plan defines SS&D as
material support provided to Industrial Depots for scheduled repair and overhaul of
aircraft, engines, components, and other maintenance and production workloads. The
SS&D functions solely relate to ordering, storing, and issuing material to ensure
industrial depots can perform maintenance, repair, and overhaul functions. Functions
included under SS&D consist of the following:

   •   stock control and shelf-life management,
   •   physical inventory management and warehousing,
   •   storage material handling and material issuing,
   •   packaging and preserving,
   •   storage and distribution quality assurance, and
   •   shipping and material handling and traffic management.

In accordance with the DLA Business Plan, DLA Aviation San Diego officials should
only perform services that directly or indirectly relate to SS&D for FRCSW.

Operating Costs Assessed, but Included Costs Outside
of Scope and Unsupported Estimates
DLA Aviation San Diego officials did not correctly assess their operating costs for
providing SS&D support to the FRCSW. Specifically, DLA Aviation San Diego
personnel included costs for services that were outside the scope of their SS&D
responsibilities. In addition, DLA Aviation San Diego personnel included operating
costs that were not supported by sound estimation or documentation practices.

DLA Aviation San Diego personnel identified their operating costs annually for
providing SS&D support to FRCSW and estimated their operating costs based on costs
associated with labor and with contractor services. From FY 2009 through FY 2011,




                                           6
	
DLA Aviation San Diego personnel identified operating costs, valued at approximately
$70.1 million. Table 2 shows the breakdown of DLA Aviation San Diego total estimated
and reviewed operating costs from FY 2009 through FY 2011.

                Table 2. DLA Aviation San Diego’s Operating Costs

Fiscal            Labor                Contractor Services       Total Operating Costs
Year             (millions)                  (millions)                 (millions)
         Estimated     Reviewed      Estimated     Reviewed     Estimated      Reviewed
2009       $12.3        $10.0          $11.8        $10.5         $24.1         $20.5
2010         11.8         9.8            10.7         9.2           22.5          19.0
2011         12.6        10.4            10.9         9.4           23.5          19.8
           $36.7        $30.2          $33.4        $29.1         $70.1         $59.3
Total

Of the $70.1 million in operating costs from FY 2009 through FY 2011, we reviewed
$59.3 million (85 percent) to determine whether the $59.3 million in DLA Aviation
San Diego operating costs were directly or indirectly related to providing SS&D support
to FRCSW. In addition, we reviewed the $59.3 million to determine whether the services
being provided were the responsibility of DLA Aviation San Diego or other Activities.
Finally, we evaluated whether the estimated operating costs were supported with
sufficient documentation and sound estimating methodology.

Expenses Not Related to SS&D Support
From FY 2009 through FY 2011, 

DLA Aviation San Diego officials            From FY 2009 through FY 2011, DLA

assessed approximately                      Aviation San Diego officials assessed

$17.6 million in operating costs to      approximately   $17.6 million. . . outside the

FRCSW that were for services                        scope of SS&D support. 

outside the scope of SS&D
	
support. Those services did not directly or indirectly relate to providing SS&D support
	
or they were the responsibility of another activity. 





                                            7
	
See Table 3 for the cost categories included in DLA Aviation San Diego’s operating costs
that were for services outside the scope of SS&D support or were not the responsibility of
DLA Aviation San Diego from FY 2009 through FY 2011.

        Table 3. DLA Aviation San Diego Costs Not Related to SS&D Support
                                               (millions)

                                                                               Total Costs
      Cost Category               FY 2009        FY 2010       FY 2011        Not Supported
Scheduling Repairs and
Overhauls                            $1.5           $1.2          $1.3              $ 4.0
Bill of Material                      2.8            2.0           2.2                7.0
Information Systems                   2.4            2.1           2.1                6.6
Support
   Total                             $6.7           $5.3          $5.6             $17.6


Costs Incurred to Provide Scheduled Repairs and Overhauls
DLA Aviation San Diego officials included approximately $4 million in contractor
support (related to assisting with scheduling repairs and overhauls for aircraft coming to
the FRCSW) in their operating costs from FY 2009 through FY 2011. The support
provided under contract N68936-05-D-0013 3 did not relate to SS&D services because it
did not involve ordering, storing, or issuing material for actual repairs or overhauls. The
Commander, DLA Aviation San Diego and the Director, DLA Aviation San Diego,
Material Management Division agreed that these services were outside of the scope of
SS&D. According to the Director, DLA Aviation San Diego, Material Management
Division, DLA Aviation San Diego officials included the $4 million in contractor support
in its operating costs at the request of the Comptroller, FRCSW. The Director further
explained that the Comptroller, FRCSW requested DLA Aviation San Diego to include
the contract costs for scheduling repairs and overhauls in its operating costs to ensure all
costs related to material management were fully captured in DLA Aviation San Diego
operating costs.

FRCSW officials should have either performed these services or accounted for the
contractor cost themselves, but, instead, they asked DLA Aviation San Diego to include
the contract cost for scheduling repairs and overhauls in their operating costs. Although
the Comptroller, FRCSW made this request, DLA Aviation San Diego officials should
not have included these costs because the services provided did not directly or indirectly
relate to SS&D support. DLA could reduce its operating costs for providing SS&D
support to FRCSW, if it excludes expenses for scheduling repairs and overhauls. Based


3
 We did not evaluate the entire period of the contract’s performance. We evaluated the contract from
FY 2009 through FY 2011, which was valued at approximately $3.5 million.

                                                   8
	
on the 3-year average from FY 2009 through FY 2011, DLA Aviation San Diego could
reduce its operating costs by approximately $1.3 million per fiscal year.

Contract Costs Incurred for Bill of Material Services
From FY 2009 through FY 2011, DLA Aviation San Diego officials included in their
operating costs approximately $7 million in contract support related to developing and
maintaining the material requirements for the repair or overhaul of aircraft. Specifically,
DLA Aviation San Diego used the bill of material 4 application to build, structure,
modify, and review material needed to conduct repairs and overhauls. DLA Aviation San
Diego personnel performed the bill of material services at the request of the FRCSW
Comptroller Office; however, DLA Aviation San Diego should not have performed these
services. According to the Comptroller, FRCSW, DLA Aviation San Diego performed
the bill of material service because FRCSW considered it a part of material management.
Although the bill of material service indirectly supported SS&D by defining the material
that needed to be ordered, FRCSW, as the owner of the production line, should identify
material requirements needed for repairs and overhauls. In addition, the MOA stated that
FRCSW was responsible for performing the bill of material service. The Director,
Material Management Division, confirmed that FRCSW should perform the bill of
material service because it involved determining the requirements for ordering material.
Therefore, DLA Aviation San Diego should not perform the bill of material service for
FRCSW, which would reduce their operating cost for providing SS&D support to
FRCSW. Based on the 3-year average from FY 2009 through FY 2011, DLA Aviation
San Diego could reduce its operating costs by approximately $2.3 million per fiscal year.

Information Systems Support Costs Incurred by DLA
From FY 2009 through FY 2011, DLA Aviation San Diego officials included
approximately $6.6 million as operating costs associated with obtaining information
technology equipment and system support from FRCSW. According to the DLA
Aviation San Diego personnel, FRCSW charged it for information technology equipment
and system support used to capture all its cost associated with material management.
However, the BRAC CONOPS states that FRCSW (as a Navy Activity) will provide or
pay for information technology equipment and system support for DLA to accomplish its
SS&D support. Therefore, FRCSW, not DLA Aviation San Diego, should be responsible
for the $6.6 million associated with information technology equipment and system
support. When DLA Aviation San Diego officials no longer pay FRCSW for information
technology equipment and system support, their operating costs will be reduced. Based
on the 3-year average from FY 2009 through FY 2011, DLA Aviation San Diego could
reduce its operating costs by approximately $2.2 million per fiscal year.

The Director, DLA Finance Aviation and Commander, DLA Aviation San Diego should
reduce its operating costs in future years by not performing services that are outside the
scope of SS&D support or are not the responsibility of DLA Aviation San Diego. Such



4
  A bill of material generates new material requirements lists from existing material lists and verifies the
lists before committing them to a database.

                                                       9
	
services include scheduling repairs and overhauls, bill of materials, and information
systems support.

Expenses Potentially Not Related to SS&D Support
From FY 2009 through FY 2011, DLA Aviation San Diego officials included in their
operating costs approximately $5.1 million in potential unallowable costs associated with
managing hazardous material that potentially was not the responsibility of DLA Aviation
San Diego. The MOA and DLA Business Plan assigned conflicting duties for providing
the hazardous material management. Specifically, the MOA states that FRCSW should
provide a portion of hazardous material management; while, the DLA Business Plan
states that the hazardous material management will become the responsibility of DLA.
The Commander, DLA Aviation San Diego stated that at least a portion of the cost
associated with hazardous material management should be removed from their operating
costs. Because the MOA and the DLA Business Plan assigned conflicting duties, we
could not determine which organization (FRCSW or DLA) should cover the costs
associated with managing hazardous material support. DLA Aviation San Diego could
not provide a definitive determination on its responsibility for hazardous material
management. In September 2011, as outlined in the DLA Business Plan, DLA Aviation
San Diego assumed responsibility for providing hazardous material management to
FRCSW; therefore, DLA Aviation San Diego did not reduce their overall operating costs.

Operating Cost Estimates Not Supported
For FY 2009 and FY 2010, DLA Aviation San Diego officials did not provide sufficient
documentation or sound estimates to support $13.9 million in estimated costs for
FRCSW. Table 4 provides the cost categories and estimates that DLA Aviation
San Diego did not support from FY 2009 through FY 2010.

         Table 4. DLA Aviation San Diego Operating Costs Not Supported
                                        (millions)
                                                                  Total Cost Not
         Cost Category              FY 2009          FY 2010       Supported
Indirect Labor 1                     $4.1             $0.0             $4.1
Indirect Labor 2                      2.1              0.0              2.1
F/A – 18 North Island                 0.7              0.0              0.7
Manufacturing                         0.6              0.6              1.2
Component – Landing                   0.5              0.5              1.0
Multi-Line                            0.7              0.0              0.7
Component – Aviation                  0.7              0.6              1.3
Components – Instrument               0.5              0.0              0.5
Enterprise Team                       1.7              0.0              1.7
Overtime for Contractor               0.6              0.0              0.6
Services
  Total                              $12.2            $1.7              $13.9

                                             10
	
DLA FY 2009 Estimated Operating Costs for Providing SS&D Not
Supported
For FY 2009, DLA Aviation San Diego personnel were unable to provide sufficient
documentation to support the assumptions and underlying basis for $12.2 million in
estimated labor and contract services costs. According to various DLA Aviation
San Diego officials, in February 2009, when they transitioned to FISC, San Diego
officials did not provide documentation to support the estimated operating costs for
providing SS&D support to FRCSW. DLA Aviation San Diego personnel did not retain
supporting documentation from FISC San Diego because the Director, Material
Management Division did not believe it was necessary to retain supporting
documentation. As a result, DLA Aviation San Diego personnel could not support
$12.2 million in operating costs for FY 2009.

DLA FY 2010 Estimated Operating Costs for Providing SS&D Not
Supported
DLA Aviation San Diego officials were unable to provide sound estimating and
documenting practices for approximately $1.7 million in estimated labor costs for
portions of FY 2010. We could not validate 5 portions of the FY 2010 DLA Aviation
San Diego cost estimates using the DLA Aviation San Diego methodologies,
assumptions, and other factors. For example, DLA Aviation San Diego’s cost estimate
for manufacturing components was $546,488. However, using the methodology
explained by DLA Aviation San Diego personnel, we determined that DLA Aviation
San Diego underestimated its manufacturing cost by $180,747 (33 percent variance). In
addition, we could not validate the cost estimate for two other DLA Aviation San Diego
labor cost categories, valued at $1,124,490. The variances for these two cost categories
were at least 16 percent from the DLA Aviation San Diego estimated amount. DLA
Aviation San Diego personnel were unable to explain why there was a significant
variance. As a result, DLA Aviation San Diego officials could not support approximately
$1.7 million in operating costs with sound estimating and documenting practices for
portions of FY 2010.

Operating Costs Assessed Were Allowable and
Supportable
Although DLA Aviation San Diego were unable to provide sufficient documentation or
sound estimating to support $13.9 million in estimated operating costs for FY 2009 and
portions of FY 2010, DLA Aviation San Diego personnel did provide sound estimating
and sufficient documentation for approximately $22.6 million in estimated operating
costs for portions from FY 2010 through FY 2011. For the $22.6 million, we were able
to validate DLA Aviation San Diego’s cost estimates using its methodology,



5
  When validating the DLA Aviation San Diego estimated costs, we determined that if the difference
between our recalculation of the estimate did not exceed 15 percent, then the DLA Aviation San Diego
estimated amount was considered reasonable.


                                                   11
	
assumptions, documentation, and other factors. Table 5 provides the cost categories and
estimates that were allowable and supportable from FY 2010 through FY 2011.

          Table 5. Operating Costs That Were Allowable and Supportable
                                    (millions)

                                                             Total Allowed and
      Cost Category              FY 2010          FY 2011    Supportable Costs
Indirect 1                        $ 4.2            $ 4.2            $ 8.4
Indirect 2                          2.2              2.4              4.6
F/A – 18 North Island               0.7              0.7              1.4
Manufacturing                       0.0              0.7              0.7
Hydraulics/ Comp Landing            0.0              0.7              0.7
Multi - Line                        0.6              0.0              0.6
H-6/ H-53 North Island              0.0              0.7              0.7
Comp Aviation                       0.0              0.5              0.5
Comp Instrument                     0.4              0.5              0.9
E – Team                            2.2              1.9              4.1
           Total                  $10.3            $12.3            $22.6

DLA Aviation San Diego’s operating costs were relatively consistent from FY 2009
through FY 2011. Over this 3-year period, DLA Aviation San Diego made
improvements in supporting and documenting the methodologies, assumption, and other
factors used to estimate its operating costs. Although DLA Aviation made improvements
over the years, we could not determine if a rate adjustment was required, without
supporting documentation for the $13.9 million in operating costs.

Inadequate Processes for Identifying and Estimating
Operating Costs
The Commander, DLA Aviation San Diego and the Director, DLA Finance Aviation did
not have adequate processes for identifying and estimating their operating costs.
Specifically, the Commander, DLA Aviation San Diego and the Director, DLA Finance
Aviation did not coordinate the development of a local support agreement with the
Comptroller, FRCSW. Furthermore, the Commander and the Director did not develop
and implement written policies and procedures governing the process for identifying and
estimating their operating costs.




                                           12
	
Lack of Support Agreement to Define Business Relationship
The Commander, DLA Aviation San Diego
and the Director, DLA Finance Aviation did          The Commander, DLA Aviation San
not develop a local support agreement with             Diego and the Director, DLA
the Comptroller, FRCSW that clearly                 Finance Aviation did not develop a
identified services performed and the cost           local support agreement with the
associated with those services.                         Comptroller, FRCSW . . . .
DoD Instruction 4000.19 states that Activities
entering into recurring interservice support that require reimbursement must document
the partnership by a signed support agreement. Before the February 2009
implementation of the BRAC recommendation, the partnership between FRCSW and
DLA Aviation San Diego, then FISC, operated under the MOA as overarching guidance.
However, since the realignment of FISC to DLA, DLA Aviation San Diego and FRCSW
did not establish a local support agreement.

According to DLA Aviation San Diego and FRCSW officials, they still operated their
partnership as established under the MOA. However, the MOA was not a sufficient
support agreement because it does not include key elements outlined in DoD
Instruction 4000.19. For example, the MOA does not include the following:

   •   cost per unit,
   •   total annual reimbursement cost,
   •   agreement on billing and payment, or
   •   time frame for services to be rendered.

For this reason, DoD Instruction 4000.19 requires a support agreement if a MOA is used.
As a result of the Commander, DLA Aviation San Diego; the Director, DLA Finance
                                                 Aviation; and the Comptroller, FRCSW
    The Commander stated that he allowed         not developing a local support agreement,
   DLA Aviation San Diego to include these       decisions that affected DLA Aviation
   costs and perform these services because      San Diego’s operating costs for SS&D
  he “did not have a mechanism in place to       were not formally documented and
     say no to the Comptroller, FRCSW.”          contributed to DLA Aviation San Diego
                                                 performing services that were outside the
scope of SS&D support. Specifically, DLA Aviation San Diego included costs for
contractor support for scheduling repairs and overhauls and performed bill of material
services, when the services were either not related to providing SS&D or were not the
responsibility of DLA Aviation San Diego. The Commander stated that he allowed DLA
Aviation San Diego to include these costs and perform these services because he “did not
have a mechanism in place to say no to the Comptroller, FRCSW.” According to the
Commander, he accommodated his customer to provide sufficient customer service.

The Commander, DLA Aviation San Diego and the Director, DLA Finance Aviation
should coordinate with the Comptroller, FRCSW to develop and implement a local

                                           13
	
support agreement that, at a minimum, clearly defines DLA Aviation San Diego’s roles
and responsibilities, SS&D services, and costs associated with the agreed upon services.
A formal local support agreement will provide SS&D guidance to DLA Aviation San
Diego and prevent the agency from performing SS&D services outside of its
responsibility.

Lack of Written Policies and Standard Operating Procedures
The Director, Material Management Division, DLA Aviation San Diego and the
Director, DLA Finance Aviation did not develop or implement procedures that
defined the process for
identifying, estimating,       The Director, Material Management Division, DLA
and documenting DLA            Aviation San Diego and the Director, DLA Finance
Aviation San Diego’s           Aviation, did not develop or implement procedures
operating costs for SS&D       that defined the process for identifying, estimating,
support to FRCSW.                 and documenting DLA Aviation San Diego’s
Neither DLA Aviation             operating costs for SS&D support to FRCSW.
Finance Office nor DLA
Aviation San Diego Material Management Division officials implemented an
independent quality control process to ensure all costs assessed annually to
FRCSW were appropriate. This occurred because the Director did not believe it
was necessary to develop and implement guidance because DLA Aviation San
Diego personnel performed these estimating functions for more than 3 years.

The Director, Material Management Division, did not document methodologies or
processes used and assumptions made to identify and estimate their operating costs. In
addition, DLA Aviation San Diego personnel did not maintain documentation to support
the development of FY 2009 estimated operating cost.

After the implementation of BRAC Recommendation #177, the Director, DLA Finance
Aviation, did not provide sufficient guidance to DLA Aviation San Diego to ensure all
operating costs assessed were within the scope of SS&D support and DLA Aviation
San Diego’s responsibility. Specifically, DLA Finance Aviation and DLA Aviation
San Diego did not have an independent quality control review process in place to prevent
costs from being included in the DLA Aviation San Diego operating budget that were not
for SS&D services or fully supported. DLA Finance Aviation officials were unaware that
DLA Aviation San Diego included costs outside of their responsibility, such as costs for
contractor support for scheduling repairs and overhauls and performed bill of material
services. According to the Director, DLA Finance Aviation, her office was unaware that
DLA Aviation San Diego included costs outside of their responsibility because under the
BRAC initial state, DLA Aviation Components continued to operate using the Navy’s
processes and procedures. The initial implementation of the BRAC recommendation
permitted DLA Aviation San Diego to provide support to FRCSW, without establishing
processes and procedures.

The Director, DLA Finance Aviation and the Commander, DLA Aviation San Diego
should develop and implement written policies and standard operating procedures that

                                            14
	
outline the process for identifying and estimating DLA Aviation San Diego’s operating
costs for providing SS&D support to FRCSW. The written policies and procedures
should include an independent quality control process to review the operating costs
assessed to the FRCSW to prevent the inclusion of costs for services that are not related
to SS&D support.

Conclusion
DLA Aviation San Diego did not correctly assess its operating cost for providing SS&D
support to the FRCSW. Specifically, DLA Aviation San Diego:

    •	 assessed $17.6 million in operating costs for services that were outside the scope
       of their SS&D responsibilities, and

    •	 assessed $5.1 million in operating costs for services that were potentially not
       SS&D support.

As a result, DLA Aviation San Diego could reduce its operating costs by approximately
$5.8 million per fiscal year. Furthermore, DLA Aviation San Diego officials could not
provide sufficient documentation for $13.9 million in SS&D support costs assessed to
FRCSW from FY 2009 through FY 2010.

Management Comments on Internal Controls and Our
Response
Deputy Director, Defense Logistics Agency Logistics Operations
Comments
The Deputy Director, DLA Logistics Operations, provided comments on the internal
control weaknesses identified in the report. The Deputy Director stated that the report
did not reflect an internal control weakness on the part of the Director, DLA Finance
Aviation. The Deputy Director indicated that DLA that Finance Aviation was not
responsible for developing a support agreement because DLA Finance Aviation could not
identify which services should or should not be provided. Therefore, DLA Finance
Aviation would not put standard operating procedures in place for other than financial
related tasks. However, the Deputy Director agreed that an agreement should be put in
place to document the support being provided by FRCSW. The Deputy Director stated
an inter-service support agreement was not the proper vehicle to define the SS&D
services performed between DLA Aviation San Diego and FRCSW. The Deputy
Director indicated the purpose of an inter-service support agreement is to detail the
specific installation support that a base host will provide to its tenants. Finally, the
Deputy Director indicated a MOA or a performance based agreement, negotiated by the
Director, DLA Aviation Customer Operations, would be more appropriate.

Our Response
We disagree with the Deputy Director’s comments. DLA Finance Aviation did not have
policies and procedures to govern budgeting and reimbursable support agreements, which

                                            15
	
represented an internal control weakness. DLA Finance Aviation serves as the principal
adviser and assistant to the commander of the aviation supply chain in implementing
policies and objectives relating to financial management, including resourcing of
operations. One of the responsibilities of DLA Finance Aviation is administration of the
interservice support programs. In addition, DLA Finance Aviation ensures execution
with respect to policies relating to budgeting, standard pricing, cost analysis, work years
and reimbursements. Therefore, DLA Finance Aviation should develop policies and
procedures related to identifying, estimating, and documenting DLA Aviation San
Diego’s reimbursable operating cost.

The Deputy Director stated an MOA was more appropriate for identifying the services
performed by DLA Aviation San Diego to FRCSW. However, DoD
Instruction 4000.19, states that a support agreement is required if an MOA is used to
document the agreement. Further, DoD Instruction 4000.19 defines a support agreement
as an agreement to provide recurring support to another DoD activity, Military Service,
or Field Activity; it should include the specifics of the basis for calculating
reimbursement charges for each service, establish billing and reimbursement process, and
specify other terms and conditions of the agreement. Therefore, a support agreement or a
MOA with a support agreement is the appropriate vehicle to document the partnership
between DLA Aviation San Diego and FRCSW.

Recommendations, Management Comments, and Our
Response
1. We recommend the Commander, Defense Logistics Agency Aviation San Diego
and the Director, Defense Logistics Agency Finance Aviation, coordinate with the
Comptroller, Fleet Readiness Center Southwest to develop and implement a local
support agreement to clearly define the Defense Logistics Agency Aviation
San Diego roles and responsibilities, supply storage and distribution services to be
performed, and cost associated with the agreed to services.

Deputy Director, Defense Logistics Agency Logistics Operations
Comments
The Deputy Director, DLA Logistics Operations, responding for the Director, DLA
Finance Aviation and the Commander, DLA Aviation San Diego, disagreed with the
recommendation. As written, the Deputy Director disagreed with using an inter-service
support agreement to document the partnership between DLA Aviation San Diego and
FRCSW because the intent was not to define the SS&D services to be performed.
According to the Deputy Director, the purpose of an inter-service support agreement is to
detail the specific installation support that a base host will provide to its tenants. Instead,
the Deputy Director recommended using a MOA or a performance based agreement to
document the support being provided by DLA Aviation San Diego to FRCSW. The
Deputy Director stated that DLA Aviation Customer Operations and DLA Aviation
Finance should review operating cost estimates for reasonableness. In addition, the


                                              16
	
Deputy Director indicated the Director, DLA Customer Operations should negotiate the
agreement through DLA Aviation San Diego, its local command.

Our Response
The Deputy Director, DLA Logistics Operations comments were partially responsive.
Although the Deputy Director did not agree with a support agreement, the Deputy
Director did agree that an agreement should be put in place. According to DoD
Instruction 4000.19, if a MOA is used to document the agreement, a support agreement is
required. Since DLA Aviation San Diego is receiving reimbursement from FRCSW for
its operating cost a support agreement is required. Therefore, a support agreement is the
appropriate vehicle to document the partnership between DLA Aviation San Diego and
FRCSW. A MOA will not replace the need for a support agreement. DoD
Instruction 4000.19 states that a support agreement is an agreement to provide recurring
support to another DoD activity, Military Service, or Field Activity; it should include the
specifics of the basis for calculating reimbursement charges for each service, establish
billing and reimbursement process, and specify other terms and conditions of the
agreement.

In addition, the Deputy Director did not provide a time frame for establishing an
agreement. Therefore, we request that the Deputy Director, reconsider his position on
developing a support agreement between DLA Aviation San Diego and FRCSW. In
addition, we request that the Deputy Director, provide a time frame for when completing
corrective actions.

2. We recommend the Director, Defense Logistics Agency Finance Aviation and the
Commander, Defense Logistics Agency Aviation San Diego, develop standard
operating procedures to identify, estimate, and document operating costs for
providing supply storage and distribution support.

Deputy Director, Defense Logistics Agency Logistics Operations
Comments
The Deputy Director, DLA Logistics Operations, responding for the Director, DLA
Finance Aviation and the Commander, DLA Aviation San Diego, agreed with the
recommendation. However, the Deputy Director indicated that FRCSW should be
responsible for developing the standard operating procedures because material
management cost was only a portion of the FRCSW’s overall budget. The Deputy
Director, stated the Comptroller, FRCSW is working with her counterparts in FRC East
and FRC Southeast to develop a standard operating procedure that documented their
operating costs for SS&D support and indicated that the standard operating procedure
will be referenced in the agreement.

Our Response
The Deputy Director, DLA Logistics Operations comments were not responsive because
proposed corrective actions did not meet the intent of the recommendation. The Deputy
Director responded with corrective actions for FRCSW. However, he did not provide an
appropriate response to explain how DLA Aviation Finance and DLA Aviation

                                            17
	
San Diego would develop and document a standard operating procedure that would
clearly identify, estimate, and document DLA Aviation San Diego operating costs for
providing SS&D support. If DLA Aviation Finance and DLA Aviation San Diego
developed standard operating procedures, DLA Aviation San Diego would have
uniformity on the process for identifying, estimating, and documenting operating costs to
provide SS&D support to FRCSW. Therefore, we request that the Deputy Director
reconsider his position and provide additional comments that identify corrective actions
and a time frame for completing corrective actions.

3. We recommend the Director, Defense Logistics Agency Finance Aviation and the
Commander, Defense Logistics Agency Aviation San Diego, establish a quality
control process to review the operating costs assessed to the Fleet Readiness Center
Southwest to prevent the inclusion of costs for services that are not directly or
indirectly related to Defense Logistics Agency, Aviation San Diego providing supply,
storage, and distribution support to the Fleet Readiness Center Southwest.

Deputy Director, Defense Logistics Agency Logistics Operations
Comments
The Deputy Director, DLA Logistics Operations, responding for the Director, DLA
Finance Aviation and the Commander, DLA Aviation San Diego, agreed with the
recommendation. The Deputy Director stated the written guidance for the quality control
process will be incorporated in the agreement identified in Recommendation 1 and
adhered to by DLA Aviation San Diego during the annual budget preparation meeting.

Our Response
The Deputy Director, DLA Logistics Operations comments were not responsive because
the Deputy Director did not meet the intent of the recommendation. A support agreement
is not the proper vehicle to document an internal quality control process specific to DLA
Aviation San Diego. The purpose of a support agreement is to define the support being
provided by one supplier to one or more receivers, specify the basis for calculating the
reimbursement charges for each service, and establish the billing and reimbursement
process, not to replace a quality control process. DLA Finance Aviation and DLA
Aviation San Diego should develop a quality control process independent of the support
agreement because it is a separate process that will ensure that DLA Aviation San Diego
does not provide services that are not directly or indirectly related to SS&D support. We
request that the Deputy Director provide additional comments in response to the final
report with corrective actions and the time frame for completing corrective actions.

4. We recommend the Director, Defense Logistics Agency Finance Aviation and the
Commander, Defense Logistics Agency Aviation San Diego, cease performing
services outside the scope of supply, storage, and distribution support or that are
not the responsibility of Defense Logistics Agency Aviation San Diego. Such
services would include scheduling repairs and overhauls, bill of materials, and
information systems support.



                                           18
	
Deputy Director, Defense Logistics Agency Logistics Operations
Comments
The Deputy Director, DLA Logistics Operations, responding for the Director, DLA
Finance Aviation and the Commander, DLA Aviation San Diego, disagreed with the
recommendation. The Deputy Director stated that DLA Aviation San Diego did not
perform the services of scheduling repairs and overhauls, bill of material, and information
systems support. The Deputy Director acknowledged that reallocating these costs from
DLA Aviation San Diego would not reduce FRCSW operating cost, but rather change the
way FRCSW accounts for these costs. The Deputy Director stated that DLA is
coordinating with FRCSW comptroller to make adjustments for FY 2013 budget that
would remove scheduling repairs and overhauls, bill of material, and information system
support from FRCSW material recovery rate.

Our Response
The Deputy Director, DLA Logistics Operations comments were not responsive. The
Deputy Director provided contradictory comments to the recommendation. Specifically,
the Deputy Director stated that DLA Aviation San Diego did not perform the services of
scheduling repairs and overhauls, bill of materials, or information technology support, but
later stated that DLA would work to remove the cost associated with these services from
their operating budget. Despite the Deputy Director’s statement that DLA Aviation
San Diego did not perform services outside of SS&D, our finding supported that DLA
Aviation San Diego included the costs for services outside SS&D support in its operating
budget or funded the contracts. Further, the Deputy Director’s comments were unclear
on whether DLA Aviation San Diego would remove the costs from its FY 2013 budget
for services outside SS&D support or if the Deputy Director indicated that FRCSW
would remove the costs from its budget for FY 2013. We request the Deputy Director,
DLA Logistics Operations, provide clarifying comments that address corrective actions
and identify a time frame for completing corrective actions.




                                            19
	
Appendix. Scope and Methodology
We conducted this performance audit from July 2010 through August 2011 in accordance
with generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

We evaluated DLA Aviation San Diego’s estimated operating costs assessed to FRCSW
for providing supply, storage, and distribution support from FY 2009 through FY 2011.
Specifically, we determined whether the estimated operating costs for labor and contract
services were allowable (directly or indirectly related to providing supply, storage, and
distribution support or not the responsibility of DLA Aviation San Diego) and
supportable (amounts supported through sound estimating and documenting practices).
In addition, we evaluated how DLA Aviation San Diego reimbursed its operating costs as
well as how FRCSW cost centers were individually assessed their share of the DLA
Aviation San Diego’s operating costs. *

During the course of the audit, we interviewed personnel from the following
organizations:

    •	 DLA Aviation, Richmond, Virginia;
    •	 DLA Aviation San Diego, San Diego, California;
    •	 DLA Strategic Program Executive Directorate personnel, Fort Belvoir, Virginia;
       and
    •	 FRCSW San Diego, San Diego, California.

To gain an understanding of how the DLA Aviation San Diego cost estimate were
developed and documented, we:

    •	 identified and reviewed policies, procedures, and MOAs governing the
       relationship between DLA and FRCSW to determine services that would be the
       responsibility of DLA Aviation San Diego;
    •	 collected, reviewed, and analyzed contracts, purchase orders, invoices, military
       interdepartmental purchase requests, and other funding documents associated with
       DLA Aviation San Diego operating costs to determine whether DLA Aviation
       San Diego was correctly assessing its operating costs;
    •	 collected, reviewed, and analyzed personnel data, such as personnel rosters,
       employee annual salary rates, and annual cost of living data;
    •	 identified and reviewed the methodologies, assumptions, and other factors used to
       develop the estimates for over 17 DLA Aviation San Diego cost categories;


*
 These surcharges are based on the material recovery rate, which is assessed by DLA associated with the
FRCSW Cost Center’s purchase orders.

                                                   20
	
   •	 identified and reviewed the cost negotiation process between DLA Aviation
      San Diego and FRCSW to determine how FRCSW agreed to the annual
      reimbursable fixed price agreement for the SS&D support; and
   •	 identified and reviewed current DLA initiatives related to the consolidation of
      SS&D services and inventories.

Once we gained an understanding of how the DLA Aviation San Diego cost estimate
were developed and documented, we validated the cost category estimates by re-creating
the estimate using the documentation, methodology, assumptions, and other factors
identified by DLA Aviation San Diego personnel. As we re-created the cost category
estimates, if the recreated cost estimate was within 15 percent, we determined the DLA
Aviation San Diego cost category estimate to be valid. We used professional judgment
and selected a threshold of 15 percent because documents, assumptions, and other cost
factors related to DLA Aviation San Diego cost category estimates were not available or
documented.

Universe and Nonstatistical Sample Selection
From FY 2009 through FY 2011, the DLA Aviation San Diego estimated operating costs,
valued at approximately $70.1 million (over 42 cost categories per fiscal year) to provide
SS&D support to FRCSW. We nonstatistically selected the cost categories with
estimated cost of at least $500,000. If the cost category estimate met the $500,000
threshold for at least one of the 3 fiscal years, we evaluated the cost category for all
3 fiscal years. Therefore, we reviewed approximately $59.3 million, which accounted for
approximately 85 percent of DLA Aviation San Diego’s total operating costs from
FY 2009 through FY 2011. The table below provides a breakdown, by fiscal year, of the
operating cost that we reviewed.

              Table. DLA Aviation San Diego Operating Cost Evaluated
                                   (in millions)

                                              Contractor        Total Operating
          Fiscal Year          Labor           Services         Cost Evaluated
       2009                    $10.0              $10.5               $20.5
       2010                      9.8                9.2                19.0
       2011                     10.4                9.4                19.8
              Total            $30.2              $29.1               $59.3


Use of Computer-Processed Data
We relied on computer-processed data extracted from the Defense Industrial Financial
Management System and Integrate Data Environment. We validated the accuracy of the
data extracted from the two systems with documentation from DLA Aviation San Diego
and FRSCW containing the details for the actual material orders received and the actual
MRR charged to FRCSW. We did not find significant errors between the computer-

                                           21
	
processed data that would preclude use of the computer-processed data to meet the audit
objectives or that would change the conclusion in this report.

Prior Coverage
No prior coverage has been conducted on our audit topic during the last 5 years.




                                           22
	
Defense Logistics Agency Comments





                      23 

24 

25 

